Review of the Federal Bureau of
  Investigation Laboratory’s
  Forensic DNA Case Backlog

        U.S. Department of Justice
      Office of the Inspector General



              Report 10-39
              August 2010
Introduction


      Forensic DNA casework testing involves the identification and
evaluation of biological evidence using DNA technologies. Forensic DNA
analysis is an important tool in law enforcement and counterterrorism
investigations. DNA analysis can be used to implicate or eliminate a
suspect, solve cases that had previously been thought of as unsolvable, link
evidence from different crime scenes, or aid in the identification of victims.

       Forensic DNA can be obtained from crime scenes or evidentiary items
such as envelopes, clothing, and drinking glasses and compared to samples
collected from known persons in an attempt to identify a perpetrator to a
crime. A single forensic case can contain multiple pieces of evidence, each
of which may yield several samples. For example, in a sexual assault case,
DNA evidence left behind by a perpetrator may be collected from the victim’s
body, clothing, and the physical location where the assault occurred.

       In addition to collecting forensic DNA evidence from crime scenes,
evidentiary items, or victims, DNA samples can be collected from persons
who have been charged or convicted of certain crimes. These convicted
offender DNA samples are uploaded into the Combined DNA Index System
(CODIS) to be compared with DNA profiles generated from evidence
collected from crime scenes and victims in an attempt to identify potential
perpetrators. 1

      The Federal Bureau of Investigation Laboratory (FBI Laboratory)
conducts analyses of forensic DNA cases as well as of convicted offender
samples. However, the FBI Laboratory has backlogs in conducting analyses
in both areas.




       1
          CODIS is a database of local, state, and national DNA profiles from convicted
offenders, unsolved crime scene evidence, and missing persons. Every state has a statutory
provision establishing a DNA database that allows for the collection of DNA profiles from
offenders convicted of particular crimes. CODIS software enables local, state, and national
law enforcement crime laboratories to compare DNA profiles electronically, thereby linking
crimes to each other and identifying suspects by matching DNA profiles from crime scenes
with profiles from convicted offenders. As of April 2010, there are over 8.5 million offender
and forensic profiles in the National DNA Index System, which is the national database in
CODIS.


                                             1
      The FBI Laboratory’s backlog in analyzing and uploading convicted
offender samples is mainly caused by recent federal legislation that
expanded the scope of DNA sample collection from violent convicted federal
offenders to include anyone who commits a federal offense as well as non-
U.S. citizens who are detained in the United States. 2 State and local forensic
laboratories are also experiencing backlogs in analyzing and uploading
convicted offender DNA samples. Among other measures, the backlogs at
the state and local level have prompted the federal government to initiate
grant programs to reduce the number of backlogged convicted offender
samples nationwide. 3

      According to the FBI, at its height in 2009, the convicted offender
sample backlog contained over 300,000 samples. 4 Despite the increase in
the number of convicted offender samples that are collected, the FBI
Laboratory has reduced the size of its convicted offender backlog by
implementing automated processes to analyze the samples. In addition, the
FBI stated that it was able to reduce the backlog by shifting between 5 and 9
casework positions to address the skyrocketing convicted offender demand.
As a result, the FBI Laboratory anticipates eliminating the convicted offender
backlog completely by September 2010.

        In contrast to the decreasing size of its convicted offender backlog, the
FBI Laboratory’s backlog of forensic DNA cases is large and growing.
Forensic DNA testing is more complex, time consuming, and it does not lend
itself to the same level of automation that can be used for testing convicted
offender samples. Because of the persistent backlog in the FBI Laboratory’s
forensic DNA case backlog, the U.S. Department of Justice Office of the
Inspector General (OIG) initiated this review to examine the Laboratory’s
efforts to reduce its forensic DNA case backlog. Our review also examined
the amount of time contributors wait to receive DNA test results for forensic
DNA cases.
       2
          Legislation that expanded the scope of DNA collection includes the 2001 U.S.
Patriot Act, which added qualifying offenses to the collection of DNA samples from convicted
offenders; The Justice for All Act of 2004, which expanded the offenses for convicted
offenders to include any federal offense; and The DNA Fingerprint Act of 2005, which
directed that the Attorney General may collect DNA samples from individuals who are
arrested or from non-United States persons who are detained under the authority of the
United States.
       3
          For example, the Department of Justice’s Convicted Offender DNA Backlog
Reduction Program provided $32 million in grant funding from fiscal years 2005 to 2009 to
help states reduce the backlog of convicted offender DNA samples.
       4
         According to the FBI, the number of convicted offender samples received rose from
7,833 in 2004, to 73,635 in 2005, to 99,215 in 2006, to 75,294 in 2007, to 76,932 in 2008,
and 96,973 in 2009.


                                             2
FBI Laboratory Forensic DNA Analysis

       The FBI Laboratory plays an important role in the analysis of forensic
DNA cases. Contributors from FBI field offices, other federal agencies,
United States Attorney’s Offices, and state and local agencies that do not
have a forensic laboratory in their jurisdiction send cases for forensic
examination to the FBI Laboratory. The FBI Laboratory provides forensic
examinations and reports, technical support, expert witness testimony, and
training to federal, state, and local law enforcement agencies.

      The FBI Laboratory is comprised of nine caseworking units, two of
which perform DNA analysis. 5 The Nuclear DNA Unit primarily examines
biological fluid stains, such as blood and semen, whereas the Mitochondrial
DNA Unit tests evidence that is not suitable for nuclear DNA testing, such as
naturally shed hairs, hair fragments, bones, and teeth. Cases within the
Nuclear and Mitochondrial DNA Units are broken down into program types
included in Exhibit 1. 6




       5
         The nine caseworking units are the Nuclear DNA, Mitochondrial DNA, Trace
Evidence, Firearms and Toolmarks, Latent Print Operations, Questioned Documents,
Chemistry, Cryptanalysis and Racketeering Records, and Explosive Units.
       6
         A nuclear DNA profile will generate a profile that identifies an individual with
almost 100 percent accuracy, while unique identifications to an individual are not possible
using a mitochondrial profile. Mitochondrial DNA profiles only link individuals’ maternal
lineage.


                                              3
                       EXHIBIT 1: PROGRAM TYPE DEFINITIONS

       Program                                        Definition
                         Traditional FBI law enforcement jurisdiction, such as violent crime,
Criminal
                         public corruption, organized crime, and civil rights violations
                         Cases in which DNA profiles of missing- and unidentified-persons
Missing Persons
                         remains are compared to biological relatives for identification
                         Cases consisting of evidence from federally recognized tribes,
Indian Country           including death investigations, child sexual and physical abuse,
                         violent felony assault, drugs and gangs, and financial crimes
District of Columbia
                         Currently being outsourced to a private laboratory, but were
Metropolitan Police
                         completed by the FBI in the past
Department (MPD)
Terrorist Explosive
                         Improvised Explosive Devices sent from warzones worldwide as a
Device Analytical
                         means to gather intelligence 7
Center (TEDAC)
                      Counterterrorism cases, including domestic terrorism, INTEL cases
Intelligence (INTEL)
                      exclude TEDAC cases
 Source: The FBI Laboratory

       The forensic DNA case backlog at the FBI Laboratory can have
significant effects. Backlogs may delay legal proceedings that are waiting on
the results of DNA analysis. Backlogs can also prevent the timely capture of
criminals, prolong the incarceration of innocent people who could be
exonerated by DNA evidence, and adversely affect families of missing
persons waiting for positive identification of remains. Additionally, delays
may increase the costs to contributors who must turn to private laboratories
for testing because the FBI Laboratory is not able to produce timely results.

      As detailed below, the FBI Laboratory has a significant forensic DNA
case backlog, and the backlog is growing. During our review, we found
issues that we believe affect the FBI Laboratory’s ability to reduce the
backlog. Because of the importance of these problems, we are providing the




       7
          TEDAC was conceived in response to the need to combat improvised explosive
devices (IED) in Iraq and Afghanistan. According to the FBI, the mission of TEDAC is to
coordinate and manage the unified effort of law enforcement, intelligence, and military
assets for the forensic and technical exploitation of IEDs of interest to the U.S. government
worldwide, in an effort to provide actionable intelligence to the offensive missions against
terrorism and to the Force Protection mission. For example, DNA analysis may help
determine the source of the device. According to the FBI, TEDAC submissions to the FBI
Laboratory’s DNA units grew from 273 in 2005 to 525 in 2009.


                                              4
FBI with our findings and recommendations to help it address these findings
expeditiously. 8

OIG Results in Brief

      Our review determined that as of March 2010, the FBI Laboratory had
a backlog of 3,211 forensic DNA cases. Given the FBI Laboratory’s current
rate of work, no new staff, and without any new cases, it would take the FBI
Laboratory about 2 years to eliminate its existing forensic DNA case backlog.
According to the FBI they are in the process of bringing on board 17
additional forensic examiners; however, hiring and training the new
personnel could take significant time (12-18 months for training personnel
new to DNA examination) and therefore would not have a significant impact
on the current backlog for almost two years. As of March 2010, over 2,700
nuclear DNA cases and almost 500 mitochondrial DNA cases were
backlogged.

      In addition, quarterly backlog reports from both the Nuclear and
Mitochondrial DNA Units of the FBI Laboratory from fiscal year (FY) 2009
through the second quarter of FY 2010 indicate that the backlog of DNA
casework samples is increasing, as illustrated in Exhibit 2.




       8
          Because this is a technical assistance report rather than a full-scale audit report, it
is not intended to comply with the U.S. Government Accountability Office’s Government
Auditing Standards. We intend to follow up on these interim findings to assess the FBI’s
progress in addressing the issues identified in this report.


                                                5
                  EXHIBIT 2: NUMBER OF CASES IN BACKLOG
                     BY UNIT FOR FYs 2009 – 2010




   Source: The FBI Laboratory, Nuclear (nDNA) and Mitochondrial DNA (mtDNA) Units’
   case management systems

      We found that the backlog of cases in the Nuclear DNA Unit has grown
by almost 40 percent (757 cases) from the first quarter of FY 2009 through
the second quarter of FY 2010. Additionally, in the Mitochondrial DNA Unit,
the backlog has grown by almost 130 percent (276 cases) during the same
time period.

       As a result of the backlog, the time it takes the FBI Laboratory to
return results to contributors is lengthy. Exhibit 3 summarizes the average
time from case submission to the FBI Laboratory until unit results are issued
to contributors, separated by case program type. Depending on the
program type, the length of time for contributors to receive DNA case results
after submission of evidence varies from approximately 150 days to over
600 days.




                                         6
     EXHIBIT 3: FYs 2008 - 2009 AVERAGE TIME FROM EVIDENCE
          SUBMISSION UNTIL REPORT BY PROGRAM TYPE 9




    Source: The FBI Laboratory, Nuclear (nDNA) and Mitochondrial DNA (mtDNA) Units’
    case management systems

       While the demand on the FBI Laboratory to conduct forensic DNA
testing has increased substantially, the FBI Laboratory has struggled to
increase its capacity to meet this growing demand. As part of the FBI’s
efforts to reduce the forensic DNA case backlog and minimize workflow
bottlenecks, the FBI Laboratory is pursuing various strategies, such as
laboratory information management system implementation, strategic
management, human resource, and outsourcing. However, these strategies
are ongoing and have not yet reduced the forensic DNA case backlog at the
FBI Laboratory.

       We also determined that the absence of a modern laboratory
information management system at the FBI Laboratory has hindered its
ability to keep pace with the demand for its services. Since September
2003, the FBI has spent over $10 million on developing a laboratory




       9
         Due to the limited number of submissions, the Mitochondrial DNA Unit does not
capture or report statistics separately for the District of Columbia Metropolitan Police
Department. These statistics are included as a part of the Criminal case statistics within the
Mitochondrial DNA Unit.


                                              7
information management system. 10 Over 6 years later, such a system is still
under development and the FBI Laboratory is incapable of generating an
electronic chain-of-custody document, tracking laboratory-wide evidence
workflows, and producing laboratory-wide statistical reports to identify
problems and delays.

      In another effort to help reduce the backlog, the FBI Laboratory has
implemented outsourcing agreements with both public and private
laboratories. While some of the outsourcing efforts are in development,
others have been in place for several years. However, thus far, these
agreements have not reduced the forensic DNA backlog at the FBI
Laboratory.

      The following sections of this report provide more detail on these
findings.




       10
          In September 2003, the FBI awarded JusticeTrax, Inc. a contract to implement a
laboratory information management system. In March 2006, the FBI terminated the
contract with JusticeTrax due to the contractor’s inability to meet specific FBI security
requirements. This resulted in an overall loss of nearly $1.2 million. In June 2005, the FBI
Laboratory started to pursue another software package and, as of March 2010, has spent
nearly $8.9 million on this new laboratory information management system, which is still
under development.


                                             8
FBI Laboratory Performance Statistics

       When requesting forensic analysis services from the FBI Laboratory,
contributors send cases, which are comprised of multiple pieces of evidence,
to the FBI Laboratory’s Evidence Control Unit. 11 The Evidence Control Unit
creates an examination plan that lists which items should be forwarded to
which examination unit. The forensic examiner in each examination unit
determines what type of forensic testing is required for each piece of
evidence within a case. Evidence can require testing in multiple caseworking
units, but some pieces of evidence from a case may not require any DNA
testing.

       Evidence Control Unit personnel physically transport evidence to and
from the caseworking units for testing and maintain a paper-based chain-of-
custody to record inter-unit exchange of evidence. Evidence sent to a DNA
unit is tested by a unit biologist, and a unit examiner analyzes test results
and issues a report to the case contributor.

      Determining backlog statistics and tracking cases through the FBI
Laboratory is labor intensive because the FBI’s evidence tracking system is
not automated. To determine a DNA unit’s work distribution by program
type, we obtained case listings from the Nuclear and Mitochondrial DNA
Units. We calculated that in FYs 2008 and 2009, the Nuclear DNA Unit
received 2,843 cases, and the Mitochondrial DNA Unit received 1,452 cases.
The bulk of the Nuclear DNA Unit’s workload is made up of criminal cases,
while the majority of the Mitochondrial DNA Unit’s workload is made up of
TEDAC cases. Exhibit 4 illustrates cases the Nuclear and Mitochondrial DNA
Units received for the 2-year period, broken down by program type.




      11
          TEDAC cases are not handled through the Evidence Control Unit; instead, they are
 delivered directly to caseworking units by TEDAC personnel.


                                            9
                EXHIBIT 4: CASES RECEIVED PER PROGRAM
                         FOR FYs 2008 – 2009 12




 Source: The FBI Laboratory, Nuclear (nDNA) and Mitochondrial DNA (mtDNA) Units’ case
 management systems

       During our review, we found it difficult to generate summary statistics
across units because the FBI Laboratory does not have a functional
laboratory information management system and no FBI Laboratory-wide
definition of “backlog.” For example, personnel in the Mitochondrial DNA
Unit classified a backlogged case to be any case that was not currently being
analyzed. In contrast, personnel in the Nuclear DNA Unit determined a case
to be backlogged if the Unit had possession of evidence, but a final report
containing the examination results was not issued to the contributor.
Because the Nuclear DNA Unit contains the majority of the forensic DNA
backlog at the FBI Laboratory, we adopted the Nuclear DNA Unit’s definition
of backlog and applied it to the Mitochondrial DNA Unit. Based on this
definition, the DNA case backlog at the FBI Laboratory as of March 2010 is
illustrated in Exhibit 5.



       12
          The Mitochondrial DNA Unit had three cases classified as both Indian Country and
Missing Persons, and we included the three cases in Indian Country. Additionally, there was
one case classified as Missing Persons and Intelligence, and we included this case in Missing
Persons. As noted in footnote 9, due to the limited number of submissions, the
Mitochondrial DNA Unit does not capture or report statistics separately for the District of
Columbia Metropolitan Police Department. The statistics are included as a part of the
Criminal case statistics within the Unit.


                                             10
               EXHIBIT 5: FORENSIC DNA CASE BACKLOG AT
                 THE FBI LABORATORY AS OF MARCH 2010




              Source: The FBI Laboratory, Nuclear (nDNA) and Mitochondrial
              DNA (mtDNA) Units’ case management systems

        External influences usually determine the order in which DNA cases
are analyzed by the FBI Laboratory. For example, upcoming trial dates are
the primary influence on case completion. Other considerations include FBI
initiatives, the FBI Director’s priorities, and media attention on a case. 13
However, because the Nuclear DNA Unit has 10 to 15 cases with
approaching trial dates at all times, it is difficult for the Unit to work on
cases that are not driven by trial dates.

        As illustrated in Exhibit 6, the backlog in each unit varies by program
type.




        13
           The FBI Director's priorities include counter-terrorism, intelligence, cyber-
based/high technology crimes, public corruption, civil rights, major white-collar crimes, and
significant violent crime.


                                             11
                 EXHIBIT 6: FORENSIC DNA CASE BACKLOG
                  BY PROGRAM TYPE AS OF APRIL 2010 14




Source: The FBI Laboratory, Nuclear (nDNA) and Mitochondrial DNA (mtDNA) Units’ case
management systems

       Exhibit 6 shows that the Nuclear DNA Unit’s Missing Persons cases are
the largest portion of the backlog, with 1,147 cases or 42 percent of its
backlog. According to FBI Laboratory personnel, Missing Persons cases often
lack a trial date and a suspect, which are driving factors in case
prioritization. As a result, these cases are often not a high priority. In the
Mitochondrial DNA Unit, TEDAC cases comprise the majority of its
backlogged cases, totaling 324 cases or 66 percent of its backlog.

      Another troubling aspect of the backlog is the length of time
contributors have to wait for results. A strategic initiative of the FBI
Laboratory is to reduce the turnaround time for DNA analysis in each unit to
60 days, and also to reduce the FBI Laboratory’s forensic casework backlog.
We calculated, by program type, the average number of days from when
evidence arrived at the FBI Laboratory to its acceptance at the DNA units
and the average amount of time it spent in the DNA units. Exhibit 7

       14
           The Nuclear DNA Unit provided us with a backlog breakdown by program based
on April 2, 2010, backlog information. At that time, the number of cases in the backlog had
increased by 9 cases in comparison to the FY 2010 second quarter backlog statistics. The
Mitochondrial DNA Unit provided us with a backlog breakdown by program based on
April 22, 2010, backlog information. At that time, the number of cases in the backlog
remained the same in comparison to the FY 2010 second quarter backlog statistics.


                                            12
provides the results of those calculations. On average, only two programs in
the Mitochondrial DNA Unit met the target 60-day processing time. No
programs in the Nuclear DNA Unit met the target. Notably, Missing Persons
cases on average take 635 days for contributors to receive results from the
Nuclear DNA Unit, and about half of that time was spent in the Evidence
Control Unit or other caseworking units.

EXHIBIT 7: AVERAGE TURNAROUND TIME FOR REPORTED CASES BY
    PROGRAM TYPE IN THE DNA UNITS FOR FYs 2008 – 2009




Source: The FBI Laboratory, Nuclear (nDNA) and Mitochondrial DNA (mtDNA) Units’ case
management systems




                                         13
       Besides the target of 60 days, TEDAC has its own prioritization system,
and codes cases as red (high priority), amber (medium priority), or green
(low priority). TEDAC sets the due date for DNA analysis based on that
priority at 5, 30, or 120 days, respectively. According to the FBI, the
Mitochondrial DNA Unit has met the priority red and amber turnaround times
in FY 2009. However, we determined that TEDAC cases, on average, take
268 days in the Nuclear DNA Unit and 167 days in the Mitochondrial DNA
Unit, not including the time spent in other caseworking units.

      According to FBI Laboratory personnel, Indian Country cases are
expected to have examination reports issued within 90 days. We found that
Indian Country cases on average take 163 days for the Nuclear DNA Unit
and 54 days for the Mitochondrial DNA Unit to complete.

      As noted above, backlogged cases can have significant impacts. For
example, delays at the FBI Laboratory can extend the time it takes to link a
perpetrator to a crime, free innocent persons from incarceration, or identify
the remains of a missing person. Untimely analysis of TEDAC submissions of
improvised explosive devices could also affect the prevention of future
terrorist attacks by delaying efforts to identify the maker of the improvised
explosive device or the source of its components.

       In addition, the timeliness of DNA analysis has an effect on victims’
families. For example, in one Missing Persons case, the remains of two
children were found and preliminarily identified based on age and clothing
recognition. To issue death certificates, DNA analysis confirming the identity
of the victims was necessary. However, it took the FBI Laboratory more
than 3 months to complete the testing for a positive match. The mother of
the deceased children called the contributor daily for notification on the
progress of the testing. The contributor could not provide a positive match
until the DNA analysis was completed.

       As noted above, the prioritization of casework has left Missing Persons
cases at the bottom of the FBI Laboratory’s forensic DNA case backlog. As a
result, Missing Persons cases comprise 42 percent of the Nuclear DNA Unit
backlog and 19 percent of the Mitochondrial DNA Unit backlog, including
cases dating back to 2001. Although the conventional approach to locating
a missing person is to initiate a criminal investigation into the
disappearance, in many cases the investigation begins at a different point—
when human remains are found. The FBI Laboratory’s low prioritization of
these cases can have a broader effect because many missing persons are
victims of homicide. Therefore, even if a perpetrator is not identified, DNA
profiles from crime scenes could be uploaded and potentially linked to each
other in CODIS, thereby aiding homicide investigations and potentially


                                     14
leading to the identification of a suspect. Delays in the analysis process can
delay these efforts.

      The timeliness of the DNA analysis results also has a financial impact
on contributors. In one example, the FBI Laboratory was not able to analyze
DNA evidence in time for a trial date scheduled in 60 days. The FBI
Laboratory informed the FBI field office that contributed the case that the
earliest the DNA test results would be ready was within 90 days. Because of
the Speedy Trial Act and necessity of the DNA test results, the contributor
had to pay a private laboratory several thousand dollars to analyze the test
results in time for the trial.

The FBI Laboratory’s Efforts to Reduce the Backlog

      Our review found that the FBI Laboratory is making various efforts to
attempt to address its forensic DNA backlog, including laboratory information
management system implementation, strategic management, human
resource initiatives, and outsourcing strategies. We examine these efforts in
the following sections.

Laboratory Information Management System

      Within the DNA units there are distinct evidence and process tracking
systems. However, the FBI Laboratory does not have a laboratory
information management system with the capability to generate statistical
reports to help manage laboratory operations, such as the length of time it
takes to examine evidence or where delays are occurring. Therefore, the
FBI Laboratory cannot electronically determine where the DNA evidence is
located during the examination process and what work remains to be
completed within the units.

      A laboratory information management system can provide many useful
functions, including the ability to track evidence throughout the analysis
process; Internet capabilities that allow external agencies to review and
request information about evidence they have submitted; extensive
reporting, workload analysis, and responses to ad-hoc queries; on-line help;
and data searching. Because of the absence of an automated system, the
FBI Laboratory’s Evidence Control Unit uses a paper-based chain-of-custody
document that tracks the flow of evidence throughout the FBI Laboratory.
The accuracy of a chain-of-custody document is vital when presenting DNA
evidence in court and an automated system could result in improved forensic
evidence control.




                                      15
      Since September 2003, the FBI has spent over $10 million in pursuit of
a laboratory information management system. Initially, the FBI awarded a
contract to JusticeTrax, Inc. to implement a commercial-off-the-shelf
system. In March 2006, the FBI terminated the contract with JusticeTrax,
Inc. because the contractor could not meet specific FBI security
requirements. This resulted in a loss of nearly $1.2 million in wasted
development costs. 15

      Following the failed attempt to implement a commercial-off-the-shelf
system, the FBI Laboratory decided to develop its own laboratory
information management system. As of March 2010, nearly $8.9 million has
been spent on the successor system being developed by the FBI Laboratory,
known as INNOVARi.

       In September 2005, before the contract for JusticeTrax, Inc., was fully
terminated, the FBI Laboratory transferred to the Office of the Chief
Information Officer (OCIO) $1 million earmarked for the development of
INNOVARi. The OCIO used these funds to purchase licenses for an FBI-wide
enterprise software to support the INNOVARi project. 16 The OCIO acquired
software support services for the FBI Laboratory and agreed to provide the
interface, known as an information portal, necessary for FBI Laboratory
employees to access INNOVARi.

      The OCIO exercised an existing Intergovernmental Agreement to
deliver INNOVARi development support services through which the OCIO and
the FBI Laboratory collectively spent over $5 million. The work was
ultimately sub-contracted to Sapient to provide these services to the FBI
Laboratory. 17

      Testing for the pilot phase of INNOVARi began in September 2006 in
the FBI Laboratory’s Trace Evidence and Evidence Control Units. An FBI
Laboratory employee told us that the initial information portal used during
the pilot phase was not acceptable and had numerous security issues that

       15
         U.S. Department of Justice Office of the Inspector General audit report entitled,
The Federal Bureau of Investigation’s Implementation of the Laboratory Information
Management System, Audit Report 06-33 (June 2006), i.
       16
          The OCIO purchased licenses for a Business Process Management software that
can be used in many business environments. According to FBI Laboratory personnel, this
software was used by other FBI divisions to simplify workflows and business processes
unique to each division within which it was implemented.
       17
          Sapient was contracted to provide consulting services to develop the INNOVARi
system. The OCIO contracted with Northrop Grumman to develop and maintain the
information portal for which INNOVARi was to interface.


                                            16
could not be resolved. For example, during pilot testing the FBI Laboratory
discovered that the OCIO-maintained information portal allowed anyone with
access to the system the ability to create a new case file, a duty which could
be outside of a user’s scope of work. Ultimately, because of these security
issues the implementation of INNOVARi has been delayed.

      In addition, further delays were caused by coordination issues within
the FBI. According to FBI correspondence, the lack of coordination at FBI
Headquarters resulted in 39 weeks of project delays. As a result, four of the
six Sapient team members supporting the INNOVARi effort, including
Sapient’s Project Lead and Chief Architect, were assigned to other federal
government projects. These coordination issues postponed development,
testing, and integration of INNOVARi.

      FBI Laboratory personnel told us that they believed that Sapient has,
to date, fully met the obligations detailed in its contract with the FBI
Laboratory and that INNOVARi was scheduled to be implemented in the
Evidence Control Unit by June 2010. According to FBI Laboratory personnel,
INNOVARi will allow the Evidence Control Unit to barcode all evidence
received by contributors and maintain its chain-of-custody document
electronically.

      However, the FBI has not met this projected schedule because the new
information portal, currently managed by the Information Technology
Services Division, only recently received a 180-day security accreditation,
and FBI Laboratory personnel will not allow the information portal to host
INNOVARi until the portal receives a permanent authority to operate.

      In addition, FBI Laboratory DNA forensic specialists expressed concern
that because INNOVARi is not a commercial-off-the-shelf laboratory
information management system, it will never be fully capable of capturing
the workflows of distinct forensic units. Until the new information portal is
implemented, the FBI Laboratory cannot ensure the functionality of
INNOVARi to the FBI Laboratory users. A key member of the INNOVARi
project implementation team informed the OIG that if the FBI Laboratory
was to abandon INNOVARi in lieu of a commercial-off-the-shelf system, the
new system would face the same information portal difficulties that have
prevented the timely implementation of INNOVARi.

      Through our discussions with personnel at the FBI Laboratory and the
Information Technology Operations Division, and our review of pertinent
correspondence and agreements, we concluded that the laboratory
information management system implementation project does not appear to
have been managed effectively. As of March 2010, the FBI has spent nearly


                                     17
$8.9 million and almost 5 years in its attempts to implement INNOVARi.
Although we have seen some improvement in the project’s status, INNOVARi
has experienced numerous problems, including stop-work delays,
information portal deficiencies, failures during pilot testing, disagreements
between the FBI Laboratory and the OCIO, and claims that a contractor
supporting a portion of the information portal project was not providing an
adequate level of customer support. We believe the project has reached a
critical phase, and we are concerned that the project could fail or be
terminated, only to start over again.

The FBI Laboratory’s Strategy Management System

      The FBI has implemented a bureau-wide Strategy Management
System to guide strategy development and decision-making processes
regarding its national security and criminal missions. An effective Strategy
Management System provides a set of measures to monitor strategic
performance, creates a vehicle to assign accountability for specific
performance objectives and measures, and enables more objective and
strategic resource allocation decisions.

      Within the past year, the FBI Laboratory has implemented its strategic
plan for achieving goals and allocating resources in line with the FBI’s
Strategy Management System. As part of its strategic plan, the FBI
Laboratory is seeking to reduce backlogs and turnaround times for all
submitted cases by compiling best practices from other government entities,
gathering statistics on examiners’ time spent away from casework duties,
reviewing case acceptance policies, and exploring options for the
development of a laboratory information management system. We plan to
monitor how this assists the FBI Laboratory in reducing backlogs and
turnaround times.

      Although the FBI Laboratory reports to the Science and Technology
Branch, the FBI Laboratory developed its strategy before the Science and
Technology Branch’s Strategy was created. Because the FBI Laboratory’s
strategy was created first, the FBI Laboratory is now trying to align its goals
with the goals of the Science and Technology Branch. For example, in April
2010, the FBI Laboratory began reporting Strategy Management System
progress on a quarterly basis to the Science and Technology Branch.
However, the FBI Laboratory’s ability to produce and report relevant data is
limited because it does not have a laboratory information management
system and cannot generate statistics throughout the FBI Laboratory.
Instead, the FBI Laboratory has to compile piecemeal statistics based on
records maintained in each caseworking unit.



                                      18
      We also noted that the FBI Laboratory’s reporting requirements to the
Science and Technology Branch had to be tailored to reflect the information
that the FBI Laboratory was able to generate. For example, the FBI
Laboratory could not provide statistics on average casework processing time
that the Science and Technology Branch requested. Instead, the FBI
Laboratory provided the “Number of Forensic Transactions Completed.” This
creates an information gap, which may hinder the FBI in making informed
decisions regarding resource allocation and future strategic planning.

      Additionally, we observed that there is no standard reporting criteria
for the FBI Laboratory’s Strategic Management System quarterly reports,
and definitions of its performance metrics have not been explicitly shared
among the units gathering statistics. Without this shared understanding of
reporting requirements, we are concerned that the FBI Laboratory’s
workload reports to the Science and Technology Branch will be inconsistent.

The FBI Laboratory’s Human Resource Management

       According to the FBI, additional staff with the expertise to perform
DNA analysis would assist in reducing the backlog. 18 The FBI reports that
the Nuclear DNA Unit has 21 funded examiner positions, and is in the
process of bringing on board additional forensic examiners. Of the 21
examiner positions, 9 are on-board qualified examiners, 8 are examiners-in-
training, and 4 are examiner candidates undergoing background
investigations. New hires are required to undergo a background
investigation in addition to completing a 12 - 18 month training program
before they can conduct casework. This puts a strain on existing forensic
examiner resources because current on-board examiners conduct the
training, taking time away from casework.

      According to the FBI, less than 50 percent of a Nuclear DNA
examiner’s time is spent on analyzing DNA evidence. We found that the
balance of their time is spent performing supervisory and managerial tasks,
making phone calls to contributors to obtain case specific information and to
provide status updates; testifying in court; and providing DNA training to
other federal components.

     However, because examiners did not record their time before July
2009, and their current, informal method for tracking time does not quantify
the amount of time spent on casework, we cannot independently determine
the amount of time that examiners spend on casework or their other duties.
       18
          The FBI stated that since 2004 it has requested almost $120 million for DNA
analysis and almost $260 million for TEDAC, but only half of the DNA and 2 percent of the
TEDAC resources have been included within prior administration budgets.


                                            19
      Without formal time tracking procedures, FBI Laboratory managers do
not know how examiners are spending their time and where there could be
areas for efficiency improvements. After our inquiries on this issue, the FBI
Laboratory agreed with the need to implement formalized procedures to
track time to better gauge what percentage of time is spent on actual
casework.

The FBI’s Outsourcing Efforts

      To help reduce the forensic DNA case backlog, the FBI has
implemented several outsourcing agreements with both public and private
laboratories. The FBI has current and planned outsourcing agreements with
the District of Columbia Metropolitan Police Department, and for the Missing
Persons, Indian Country, and TEDAC programs.

      In 2004, the FBI Laboratory signed an agreement with the District of
Columbia Metropolitan Police Department to provide laboratory facilities and
services and to help the District of Columbia Metropolitan Police Department
establish its own forensic DNA analysis capabilities. However, because of
space constraints at the FBI Laboratory, the District of Columbia
Metropolitan Police Department (Metropolitan Police Department) and the
FBI Laboratory agreed in September 2008 to outsource police cases to a
private laboratory for testing. Based on this agreement, the Metropolitan
Police Department will reimburse the FBI up to $4 million for the FBI
Laboratory to assist it with forensic examiner training and forensic testing of
material connected with criminal cases.

      To obtain DNA analysis, the District of Columbia Metropolitan Police
Department sends a request to the FBI Laboratory Nuclear DNA Unit to
create a new case. The Nuclear DNA Unit considers these cases as a part of
the Nuclear DNA backlog, although the Police Department physically
maintains the forensic evidence at its facility. According to FBI Laboratory
personnel, the Metropolitan Police Department cannot locate evidence for
over 200 cases, which comprises almost half of the backlogged Police
Department cases. As a result, the Nuclear DNA Unit has instructed the
Metropolitan Police Department to ensure that future evidence has been
located and prepared prior to submission of an exam request.




                                      20
      In addition to the agreement with the Metropolitan Police Department,
the FBI Laboratory also has cooperative agreements with three regional
forensic laboratories to provide mitochondrial DNA analysis to other federal,
state, and local law enforcement agencies. 19 As part of these outsourcing
agreements, the FBI reimburses each of the partner laboratories for
expenses related to mitochondrial DNA analysis, including salaries. Each
laboratory is projected to complete 120 mitochondrial DNA cases a year.
These cases are sent directly to the partner laboratories from law
enforcement contributors and are tracked by the FBI Laboratory. 20
According to FBI Laboratory personnel, the FBI Laboratory has decided to
pursue a similar outsourcing agreement for testing of nuclear DNA Missing
Persons case evidence.

       According to the FBI, the regional mitochondrial DNA outsourcing
program contributed to a decrease in the FBI Laboratory’s mitochondrial
DNA backlog from 678 cases at the end of FY 2006 to 255 cases at the end
of FY 2008. This outsourcing program has relieved the Mitochondrial DNA
Unit from processing new cases that were sent to these regional
laboratories. However, we found that from FY 2009 through March 2010,
the backlog has increased to 489 cases. FBI Laboratory personnel informed
us that because of the unexpected volume of TEDAC submissions, the
Mitochondrial DNA Unit at the FBI Laboratory workload has increased
significantly.

      In addition to the outsourcing efforts described above, the FBI has
discussed outsourcing plans for Indian Country and TEDAC cases. Because
of the long turnaround times for Indian Country cases, which as discussed
above average 163 days in the Nuclear DNA Unit and 54 days for the
Mitochondrial DNA Unit, contributors have sought to develop an agreement
that will allow them to directly submit Indian Country case evidence to
partner public laboratories and the FBI would reimburse these laboratories
for the cost of DNA analysis.




       19
          The FBI Laboratory had regional forensic laboratory agreements with the Arizona
Department of Public Safety, the Minnesota Department of Public Safety, the Connecticut
Department of Public Safety, and the New Jersey Department of Public Safety. At the end
of FY 2009, the FBI Laboratory and the Connecticut Department of Public Safety ended their
agreement.
       20
          Our analysis of the FBI Laboratory’s Mitochondrial DNA Unit’s backlog did not
include backlog statistics from the partner laboratories because these cases are sent directly
to the partner laboratories.



                                             21
      As of April 2010, TEDAC is seeking to either outsource high priority
cases from the FBI Laboratory or create a permanent, TEDAC-specific
laboratory. An FBI Laboratory official told us that TEDAC operations take up
considerable storage space at the FBI Laboratory. The official expressed
concern that if another catastrophe, similar to the events of
September 11, 2001, were to occur, the FBI Laboratory would not have
adequate space to safely store and manage evidence from such an event.

Conclusion

      The FBI Laboratory’s forensic DNA analysis units have a significant
backlog, with over 3,200 backlogged cases awaiting DNA analysis as of
March 2010, and this backlog is growing. Since October 2008 the backlog of
forensic DNA cases has increased in the Nuclear DNA Unit by almost
40 percent and in the Mitochondrial DNA Unit by almost 130 percent. At the
current rate of work, the forensic DNA case backlog would require about
2 years to complete, even without the addition of any new cases.

       Missing Persons cases composed the highest number of backlogged
cases, with 1,241 cases or 39 percent of the forensic DNA case backlog as of
April 2010. Additionally, the backlog contained 770 Criminal cases, 457
District of Columbia Metropolitan Police Department cases, 391 TEDAC
cases, 223 Indian Country cases, and 138 Intelligence cases.

       The average time that it takes the FBI Laboratory to provide DNA
testing results to contributors is lengthy, ranging from approximately
150 days to over 600 days. On average, two programs in the Mitochondrial
DNA Unit provided DNA test results within 60 days to contributors, while
none of the Nuclear DNA Unit programs provided test results in this
timeframe. Missing Persons cases on average take 635 days for contributors
to receive results from the Nuclear DNA Unit. This backlog can have
significant consequences for the FBI’s law enforcement and counterterrorism
efforts. For example, the forensic DNA case backlog can extend the time it
takes to link a perpetrator to a crime, free innocent persons from
incarceration, or identify the remains of a missing person. Untimely analysis
of TEDAC submissions of improvised explosive devices could also affect the
prevention of future terrorist attacks by delaying efforts to identify the
maker of the improvised explosive device or the source of its components.

      According to the FBI, additional staffing with the expertise to perform
DNA analysis would assist in reducing the backlog, and the FBI Laboratory is
pursuing various strategies to help reduce the forensic DNA case backlog.
However, the FBI Laboratory still has not been able to implement an
automated laboratory information management system. Since September


                                     22
2005, the FBI Laboratory has spent nearly $8.9 million developing INNOVARi
as such a system, and according to FBI Laboratory personnel, the
implementation of INNOVARi has experienced significant delays as the result
of information portal deficiencies. We are also concerned that INNOVARi
may experience unforeseen operational problems once the current
information portal receives permanent authority to operate or that the
project may be terminated, only to start over again.

     While the FBI Laboratory has implemented several outsourcing
agreements with both public and private laboratories, we also have concerns
whether these efforts will significantly contribute to a decrease in the FBI
Laboratory’s forensic DNA case backlog.

Recommendations

      The FBI Laboratory is undertaking several strategies to support case
contributors and reduce its DNA backlog in forensic casework. However,
because of the significance of the issues we found, we are making five
recommendations to help improve FBI Laboratory operations:

  1. Standardize FBI Laboratory-wide definitions for calculating backlog
     within caseworking units.

  2. Ensure the availability of an information portal that has received
     permanent authority to operate for FBI Laboratory users to access a
     laboratory information management system.

  3. Establish formal time tracking procedures and definitions in the FBI
     Laboratory to accurately capture time spent conducting forensic DNA
     casework.

  4. Coordinate with the District of Columbia Metropolitan Police
     Department to resolve the more than 200 instances of missing case
     evidence.

  5. Examine the effect of outsourcing agreements on the overall DNA
     forensic casework backlog and the time contributors wait for test
     results.




                                     23
                                                                                        APPENDIX I

FBI RESPONSE TO OIG TECHNICAL ASSISTANCE REPORT
               RECOMMENDATIONS

                                                      u.s. Department of Justice

                                                      Federal Bureau of Investigation


                                                    Washington, D. C. :20.';:]5-000 1

                                                      July 2 8, 20 10




 Cynthia A. Schnedar
 Deputy Inspector General
 Office of the Inspector General
 U.S Department of Justice
 950 Pennsylvania Avenue, N. W.
 Washington, D.C. 20530


 Dear Ms. Schnedar:

                The Federal Bureau of Investigation (FBI) appreciates the opportunity to review
 and respond to your draft audit interim technical assistance report entitled, "Review of the
 Federal Bureau of Investigation Laboratory's Forensic DNA Case Backlog" (hereinafter
 "Report").

               We are pleased the Report acknowledges the FBI's work on the convicted
offender backlog. The FBI has in eight months nearly cut in half the convicted offender backlog
from its December 2009 peak of 312,000 samples to a current backlog of approximately 165,000
samples. We are on track to eliminate that remaining backlog entirely by September oftrus year.
As we reported to you, the FBI shifted vital Laboratory resources from casework to address the
massive growth of convicted otlender samples following legislative changes in 200 1,2004, and
2005. Thi s shift of resources, combined with other Laboratory initiatives, enabled the FBI to
address the backlog created by skyrocketing demand.

                The shift in resources to the convicted offender backlog took resources away from
DNA forensic casework. That loss of resources coincided with new demands on DNA foren s ic
caseworkers. The Laboratory has taken on s ignificant new DNA casework in the last several
years. First, as described in your Report, the FBI works with the Terrorist Explosive Device
A nalytical Center (TEDAC) to provide forensic and technical exploitation of Improvised
Explosive Devices (IEDs) collected from war zones as a means to gather intelligence. TEDAC
was established in 2003, and annual TE DAC submissions to the Laboratory's DNA units
doubled between 2005 and 2009. Second, in 2000, the FBI establi shed a Missing Persons
program. Standing alone, the Missing Persons program now accounts for approximatel y 1,241
cases in the Laboratory 's DNA casework backlog.

                 Significant portions of the FBI 's requests for additional DNA resources were
rejected during that same period of time. As noted in your Report, since 2004, the FBI has
requested almost $120 million for DNA analysis and almost $260 million for TEDAC, but only
half of the DNA and two percent of the TEDAC resources have been included within prior
administration budgets. In addition, during the same period oftime, the FBI made rec urring
requests for additional DNA personneL Cumulatively, the FBI requested 149 more DNA
positions than it received. The FBI believes that our backlog numbers could be s ignificantly
lower had resources kept pace w ith the escalating submissions. Nevertheless, as you know, we
have pursued other strategies to address the growing number of case submissions and we are




                                                24

making progress on the backlog: over the last five months, the backlog of nuclear DNA cases has
dropped.

                The FB I looks forward to the continuation of this audi t and its fuller accounting of
the resource issues that affected our ability to address the growing number of casc submissions.
The auditing team has not yet conducted interviews at TEDAC or of the FBI Lab' s Assistant
Di rector, wh ich the FBI views as imperative to obtain a full understanding of these issues.

                In conclusion, based upon a review of the Report, the FBI concurs with the five
interim recommendations directed to the FBI. The FBI appreciates the professionalism ex hibited
by your staff to complete this interim Report. Enelosed herein are the FBI's responses to the
recommendations. Please feel free to contact me at 202-324-2901 should you have any questions
or need furthe r in fonnation.

                                                Sincerely yours,


                                              y~-~
                                                Amy Jo Lyons
                                                Assistant Director
                                                Inspection Division

Enclosure




                                                 2


                                                 25

                 OIG Audit of FBI's Forensic DNA Sampling Backlog
                          Responses to Recommendations

 I. Standardize FBI Laboratory-wide definitions for calculating backlog withi"
 caseworkil'g ullits.

        Concur. The FBI Laboratory Division (Lab) will standardize FBI Laboratory­
wide definitions for calculating backlog within caseworking units. Currentl y, the Lab
incl udes in a backlog count all cases pending completion at the Lab. The Lab will
consider alternate definitions of backlog to allow for program-specific analysis time
considerations and customer requirements.

1. Ensure the availability of all ill/ormation portalJor FB} Laboratory IIsers to access
a laboratory ill/ormation management system.

        Concur. Effective 6/3/2010, the FBI's Security Division (SeeD) granted an
Authority to Operate for VIDAR for a period of 180 days. VIDAR hosts three tools: 1)
the Infonnation Portal; 2) INNOV ARi; and 3) Collaboration. To ensure the availability
of the Infonn ation Portal, SeeD has also established a Plan of Action and Milestone
(POA&M) list to mitigate the existing Operational and Technical Control vulnerabilities.
Each month, SecD updates the POA&M "work-off' dates to indicate a Target Date for
compl etion. (Sec Secret document attached to these responses.)

         In addition, the FBI Lab has funded the acquisition of hardware and software that
has been installed by the Operational Technology Division (OTO) in Quantico during
2010 at their faci lity. This has permitted the Lab to currently have an instance of the
TNNOV ARi application operat in g on the Quantico-based environment to support user
acceptance testing and training. The Quantico-based environment is undergoing its own
certification and accreditation process, which is being overseen by OTD, and would have
the capability of accommodating a production environment in the future ifrequired by
the Lab. [fa Quantico-based environment is used in the future as the production
environment for the Lab's information management system, then the use of an enterprise
Infonnation Portal would not be required to access the system.

      Last ly, the FBI Assistant Director responsible for the Lab has recently initiated a
comprehensive review to detennine laboratory informati on needs. Depending on the
outcome of this review, the Infonnation Portal needs of the Lab could change.

3. Establish formal time tracking procedures and defim'tions ill the FBI Laboratory 10
accurately capture lime spelll COlldliclit'g/orelJsic DNA casework.

        Concur. The Nuclear DNA Unit (nDNAU) has purchased Easy Projects.Net.
This Commercial-off-the-Shelf product is a proj ect management, task, and time tracking
software tool. The nDNAU will host EasyProjects.Net on its DNA Local Area Network
to manage its resource allocation and to centralize its program management. Easy
Projects.Net will enabl e the nDNAU to track the time Forensic Examiners spend



                                             1




                                             26

perfonning foren sic case work and other tasks. The unit's managers wi ll use Easy
Project.Net's project management feature to assign and define tasks as well as track the
progress of individual projects.

      tn the near future, the Mitochondrial DNA Unit wi ll implement the same proj ect
management, task. and time tracki ng software tool.

4. Coordinate with the District of Columbia Metropolitan Police Department to resolve
the more thall 200 instances of missing e"idellce.

Concur. In earl y 20 10, a Lab review of the Di stri ct of Columbia Metropolitan Police
Department (MPD) cases identified case req uests that had been forwarded to the FBt
Laboratory. but that had not yet been entered into the unit' s Case Manan gcment system.
MPD had earlier estimated that there were ;'more than 200," but the FBI's review with
them identified 160. These requests were originally submitted to register them for
serological and nuclear DNA analysis under the terms of the Memorandum o f Agreement
(MOA) between MPD and the FBI; however, because MPD had not yet submitted
evidence, they remained inactive. The nDNAU has worked with MPD to review these
160 cases and MPD has confirmed that it is not able to forward evidence for testing at
thi s time. These cases have been closed by the nDNAU and removed from its active
casework inventory. The closure of these cases docs not preclude M.PD from submitting
evidence in these matters through subsequent examinat ion requests for potential future
anal ysis under the terms of the MOA. The FBI requests that this recommendation be
closed .

5. Examine the effect of outsourcing agreemellls on the overall DNA forensic
casework backlog and the time contributors ",aitfor test results.

Concur. The effects on the DNA casework backlog will be monitored for the fo llowing
outsourcing agreements.

   •   Cooperati ve Agreement with Minnesota Department of Public Safety, Bureau of
       Criminal Apprehension
   •   Memorandum of Agreement with the Washington, D C's Metropolitan Pol ice
       Department
   •   Cooperative Agreement with three Regional Mitochondrial DNA Laboratories




                                           2


                                            27

                                                             APPENDIX II

         OFFICE OF THE INSPECTOR GENERAL
   SUMMARY AND ANALYSIS OF ACTIONS NECESSARY TO
                 CLOSE THE REPORT

      The OIG provided a draft of this technical assistance report to the FBI.
The FBI response is incorporated in Appendix I. The following provides the
OIG analysis of the response and summary of actions necessary to close the
report.

       The FBI stated in its response that over the last 5 months, the backlog
of nuclear DNA cases has decreased. During our review which ended in
April 2010, we report there has been a steady increase in the Nuclear DNA
Unit’s case backlog since October 2008. Backlog numbers can fluctuate from
month to month. We believe that our long-term trend calculations of the
Nuclear DNA Unit’s backlog present a more accurate picture of the backlog
than short-term calculations.

Summary of Actions Necessary to Close the Report

1. Resolved. The FBI concurred with our recommendation to standardize
   FBI Laboratory-wide definitions for calculating backlog within
   caseworking units. This recommendation can be closed when we receive
   evidence that the FBI Laboratory has established a uniform definition of
   backlog in caseworking units to be used when calculating and reporting
   performance statistics. Additionally, please provide clarification as to
   why alternate definitions of backlog are necessary to allow for program-
   specific analysis time considerations and customer requirements.

2. Resolved. The FBI concurred with our recommendation to ensure the
   availability of an information portal that has received permanent
   authority to operate for FBI Laboratory users to access a laboratory
   information management system. This recommendation can be closed
   when we receive evidence that full security accreditation and a
   permanent authority to operate has been granted to an information
   portal through which the FBI Laboratory can deliver INNOVARi to its
   users. If the review initiated by the Assistant Director produces a
   decision that would lead the FBI Laboratory to abandon the INNOVARi
   project, please provide us with evidence of this review and a plan
   detailing alternative options to provide the FBI Laboratory with a
   laboratory information management system in a timely manner.




                                      28
3. Resolved. The FBI concurred with our recommendation to establish
   formal time tracking procedures and definitions in the FBI Laboratory to
   accurately capture time spent conducting forensic DNA casework. This
   recommendation can be closed when we receive evidence that the
   Nuclear and Mitochondrial DNA Units are using this project management,
   task, and time-tracking software tool to capture unit hours spent on
   casework and other duties.

4. Resolved. The FBI concurred with our recommendation to coordinate
   with the District of Columbia Metropolitan Police Department to resolve
   the over 200 instances of missing case evidence. This recommendation
   can be closed when we receive evidence of the FBI Laboratory’s review
   of the Metropolitan Police Department’s case requests and the
   documentation and justification for the removal of the 160 cases from
   the Nuclear DNA Unit’s active case inventory.

5. Resolved. The FBI concurred with our recommendation to examine the
   effect of outsourcing agreements on the overall DNA forensic casework
   backlog and the time contributors wait for test results. This
   recommendation can be closed when we receive documentation outlining
   the FBI Laboratory’s specific monitoring plans for all outsourcing
   agreements including what data they will be monitoring and how often,
   as well as how the data will be used to gauge performance.




                                    29
